OIG SAR covers 1-4.qxd       11/22/11      2:27 PM      Page 2




                                          Office of Inspector General



                       Office of                                      Inspector General                                        Office of
                     Administration                                                                                            Counsel
                                                                           Deputy
                                                                      Inspector General




                                   Office of Audit                                                               Office of
                                   and Evaluation                                                              Investigations




         OIG Main Number                                                        OIG Hotline
         Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661     Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
         More Information                                                                                                                     or 800.424.5197
         Visit www.oig.doc.gov to learn more about our activities,              TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
         download reports and testimony, and subscribe to our                                                                                    or 800.854.8407
         RSS feed for website updates. E-mail website comments                  E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
         to oigweb@oig.doc.gov.




      About the Cover
      The cover contains OIG’s new logo, which echoes the Commerce seal in form and iconography and abstractly represents the
      Department’s diverse agencies. The gear symbolizes innovation, technology, and entrepreneurship; the flag evokes the
      Department’s important international and domestic missions. In addition to alluding to the nautical origins of Commerce, the
      lighthouse acknowledges OIG’s responsibility to shine light on departmental programs and operations.
      Photos courtesy U.S. Department of Commerce, U.S. Census Bureau, U.S. General Services Administration, and National Aeronautics and
      Space Administration
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page i




                                 Office of Inspector General

                               Semiannual Report to Congress



                                                      September 2011
OIG SAR for SEPT 2011.qxd        11/28/11        10:53 AM        Page iii




                                                                   CONTENTS

              From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


              Top Management Challenges for the Department . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


              Work in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


              Agency Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Department-Wide Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                     Economics and Statistics Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                     International Trade Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                     National Institute of Standards and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                     National Oceanic and Atmospheric Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                     United States Patent and Trademark Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


              American Recovery and Reinvestment Act Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


              Statistical Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


              Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40


              Acronyms and Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page iv
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 1




                                            FROM THE

                                       INSPECTOR GENERAL 

              I am pleased to present the Department of                   departmental concerns: information technology
              Commerce Office of Inspector General’s (OIG)                security, acquisitions and contracting, and NOAA’s
              Semiannual Report to Congress for the 6 months end­         satellite program. These challenges will be issued in a
              ing September 30, 2011.                                     separate report and included in the Department’s
                                                                          November 2011 Performance and Accountability
              This report summarizes work we completed and                Report and the March 2012 Semiannual Report
              initiated during this semiannual period on a number         to Congress.
              of critical departmental activities. Over the past
              6 months, our office issued 10 audit and evaluation         We look forward to working with the Department
              reports addressing programs overseen by the                 and with Congress in the months ahead to meet these
              Economics and Statistics Administration, National           and other challenges facing Commerce as it fulfills its
              Oceanic and Atmospheric Administration, National            complex mission. We recognize former Secretary and
              Telecommunications and Information Adminis­                 now Ambassador Locke for his leadership of the
              tration, U.S. Patent and Trademark Office, and the          Department and his effort to set the proper tone at
              Department itself. Most notably, our oversight of the       the top. We would also like to thank Acting Secretary
              2010 Census, which counted nearly 309 million               Blank for her stewardship of the Department over the
              people in the largest peacetime mobilization in             past several months as we transitioned to a new
              American history, drew to a close with the                  Secretary. We also thank senior officials throughout
              publication of our final report in June.                    the Department and the members of Congress and
                                                                          their staffs for their support of our work during this
              During the final months of this reporting period, we        reporting period and for their receptiveness to our rec­
              began to identify the top management challenges fac­        ommendations for improving Commerce operations.
              ing the Department in FY 2012. Two new-cross cut­
              ting goals focus on the President’s initiatives for
              economic recovery and job creation: (1) promote
              exports, stimulate economic growth, and create jobs,
              and (2) reduce costs and improve operations to opti­
              mize resources in a period of constrained budgets.          Todd J. Zinser
              The remaining three challenges are longstanding             Inspector General




                                                                      1
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 2
OIG SAR for SEPT 2011.qxd      11/28/11   10:53 AM   Page 3




                      TOP MANAGEMENT CHALLENGES

                          FOR THE DEPARTMENT 

              Offices of inspector general at major agencies are             ■    correcting unfair trade practices and protecting our
              required by law to issue an annual report highlighting              national security through enforcement activities;
              what they consider, from their oversight perspective,               and
              the most significant management challenges facing
              their agencies. On September 30, 2011, the                     ■    improving regulatory reviews to protect and pro­
              Department of Commerce OIG issued the draft fis­                    mote public interests.
              cal year (FY) 2012 Top Management Challenges
              Facing the Department of Commerce report to the                2. Reduce Costs and Improve Operations
              Acting Secretary for response.                                    to Optimize Resources for a Decade of
                                                                                Constrained Budgets
              The five major challenges we identified for FY 2012
              represent cross-cutting issues with a focus on the             The Department must reduce operating costs in the
              President’s most important goals. The first two chal­          face of an extended period of constrained federal
              lenges in the report are new additions this year; the          budgets, including federal funds awarded to grantees.
              remaining three challenges are longstanding depart­            Key issues include:
              mental concerns.
                                                                             ■    implementing and expanding initiatives to improve
              1. Effectively Promote Exports, Stimulate                           operational efficiency and economy;
                 Economic Growth, and Create Jobs
                                                                             ■    strengthening oversight of improper payments for
              The Department is tasked with the critical mission to               additional recoveries;
              promote the export of American goods, stimulate
              economic growth, and create jobs while simultane­
                                                                             ■	   reducing the risk of misuse, abuse, or waste of fed­
              ously enforcing trade laws and protecting U.S. trade                eral funds awarded to grantees;
              interests. This challenge highlights the critical role         ■    continuing oversight of the Broadband Technology
              the Department plays in implementing the                            Opportunities Program;
              President’s National Export Initiative and Export
              Control Reform Initiative. It also discusses unique            ■	   applying lessons learned from 2010 decennial to
              challenges facing the Bureau of Economic Analysis,                  planning for the 2020 Census to avoid cost over­
              Bureau of Industry and Security, Economic                           runs; and
              Development Administration, International Trade
              Administration, National Institute of Standards and            ■    protecting against cost overruns and schedule slip­
              Technology, National Oceanic and Atmospheric                        pages for headquarters renovation.
              Administration, and U.S. Patent and Trademark
              Office. Key issues include:                                    3. Strengthen Department-Wide
                                                                                Information Security to Protect Critical
              ■    implementing administration initiatives with effec­          Information Systems and Data
                   tive interagency partnerships;
                                                                             The Department depends on information security
              ■	   enhancing Commerce unit operations to help pro­
                                                                             systems to deliver its critical mission. This challenge
                   mote trade and job creation;
                                                                             discusses the Department’s progress in enhancing IT
                                                                             security workforce training and improving collabora­



                                                                         3
OIG SAR for SEPT 2011.qxd      11/28/11   10:53 AM   Page 4




              Top Management Challenges for the Department 	                         September 2011—Semiannual Report to Congress



              tions, while it faces the perpetual challenge of recur­        5. Manage the Development and
              ring security weaknesses. Key issues include:                     Acquisition of NOAA’s Environmental
              ■    continuing work to improve IT security by address­
                                                                                Satellite Systems to Avoid Launch
                   ing ongoing security weaknesses and                          Delays and Coverage Gaps

              ■	   implementing security policy effectively through          This challenge discusses the satellite programs’ long
                   consistent, proactive management.                         history of cost overruns and schedule delays, progress
                                                                             made in reorganizing these programs, and actions
              4. Manage Acquisition and Contract                             needed to prevent or mitigate the impact of satellite
                 Operations More Effectively to Obtain                       coverage gaps. Key issues include:
                 Quality Goods and Services in a Manner                      ■	   preventing a near-term polar satellite coverage gap
                 Most Beneficial to Taxpayers                                     between NOAA-19 and the National Polar-orbit­
                                                                                  ing Operational Environmental Satellite System
              This challenge discusses the Department’s growing                   (NPOESS) Preparatory Project (NPP);
              contract activities and costs and its need to improve
              IT investments, which account for about 25 percent             ■	   ensuring solid program management and systems
              of the Department’s total annual budget. Key issues                 engineering principles are applied to mitigate Joint
              include:                                                            Polar Satellite System (JPSS) coverage gaps; and
              ■	   developing and retaining a qualified acquisition          ■	   maintaining robust program management and sys­
                   workforce;                                                     tems engineering disciplines to prevent geostation­
                                                                                  ary coverage gaps.
              ■	   ensuring high ethical standards in the acquisition
                   workforce and in procurement practices;                   The entire Top Management Challenges final report,
                                                                             including Department management comments, will
              ■	   strengthening processes to govern the appropriate         appear in the Department’s November 2011
                   use of high-risk contracts and to maximize compe­         Performance and Accountability Report.
                   tition;

              ■    achieving efficiency and savings in acquiring goods
                   and services, and improving oversight and tracking
                   of contract savings; and

              ■	   delivering cost savings and efficiency on major IT
                   investments.




                                                                         4
OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM   Page 5




                                       WORK IN PROGRESS

              The following OIG audits and evaluations were initi­         Purchase Card Controls
              ated or underway during this reporting period:               Determine whether the Department has adequate
                                                                           transaction-level internal controls over purchase card
              Department-Wide                                              transactions. Examine results of Commerce units’
                                                                           purchase card reviews to understand any improve­
              Web Application Security                                     ment initiatives they are implementing.
              Determine whether the Department’s web-based
              applications, which provide various important servic­
              es to the public, are properly secured to minimize the       Economics and Statistics
              risk of cyber attacks.                                       Administration
              Information Security                                         2020 Decennial Census Planning
              Audit the Department’s information security pro­             Monitor early 2020 planning to identify methods for
              gram and practices, to determine whether (1) imple­          improving the design of the 2020 Census, focusing
              mented security controls adequately protect the              on the ways in which the bureau’s evaluation of the
              Department’s systems and information and (2) con­            2010 Census will inform 2020 design.
              tinuous monitoring is keeping authorizing officials
              sufficiently informed about the operational status           Map and Address Database
              and effectiveness of security controls.                      Conduct a review of Census’s procedures for updat­
                                                                           ing its master address file and map database, review
              FY 2011 Financial Statement Audits                           decennial census data files to identify trends or
              Determine whether the financial statements for the           anomalies, and assess the bureau’s progress toward
              Department and USPTO are fairly stated in accor­             meeting the 2010 geographic initiative.
              dance with generally accepted accounting principles.
              These audits are performed by an independent pub­
              lic accounting firm under OIG oversight.                     National Oceanic and
                                                                           Atmospheric Administration
              Implementation of Acquisition
              Savings Initiatives                                          Fisheries Enforcement Activities
              Audit the Department’s implementation of the key             Continue our nationwide review of NOAA’s progress
              initiatives created by OMB to control contract               in implementing the corrective actions it planned in
              spending and reduce risk. Assess the validity of any         response to our January 2010 Review of NOAA
              reported savings or cost reductions.                         Fisheries Enforcement Programs and Operations.
              Acquisitions Workforce                                       Approach in Defining and Reporting on
              Assess the adequacy of Commerce’s plan for deter­            Its Asset Forfeiture Fund (AFF)
              mining its acquisition workforce needs and its               Review NOAA’s efforts to address issues related to the
              progress in addressing those needs. Examine the              AFF. Determine whether NOAA has properly identi­
              Department’s methods for (1) determining the neces­          fied the assets that make up the AFF, defined allow­
              sary skills and competencies for its workforce;              able uses for these assets, and developed controls for
              (2) addressing gaps in hiring and developing its work­       collecting and distributing them.
              force; and (3) identifying programs, policies, and
              practices to ensure a sufficient workforce.


                                                                       5
OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM   Page 6




              Work in Progress                                                  September 2011—Semiannual Report to Congress



              Management of Cost-Plus-Award-Fee                            American Recovery and
              Contracts                                                    Reinvestment Act
              Determine whether (1) NOAA’s decisions related to
              award-fee ratings and payments are properly support­         NIST’s Oversight of Recovery Act
              ed and (2) NOAA effectively monitors award-fee               Construction Grants
              plans and contractor performance.                            NIST received $180 million of Recovery Act funds to
                                                                           grant awards for the construction of research science
                                                                           buildings. As a result of this, 16 projects were funded
              National Telecommunications and                              that will launch more than $400 million in construc­
              Information Administration                                   tion projects. Assess NIST’s oversight of the awards,
                                                                           including (1) policies and procedures it has devel­
              Third Annual Audit of the Public Safety                      oped; (2) its personnel and monitoring systems;
              Interoperable Communications (PSIC)                          (3) monitoring activities it has implemented; and
              Grant Program                                                (4) whether construction projects are being built
              Conduct third annual audit of the PSIC grant                 according to their original proposals.
              program. Assess NTIA’s administration of the pro­
              gram and report results to Congress, as required by          NIST’s Oversight of Recovery Act
              section 2201 of Implementing Recommendations of              Construction Contracts
              the 9/11 Commission Act of 2007 (Title XXII, P.L.            Audit Recovery Act contracts totaling $174 million
              110-53).                                                     awarded for NIST’s own facility construction.
                                                                           Determine whether NIST has contracting practices
              PSIC Program Costs and Equipment                             in place that comply with laws and regulations,
              Audit selected states and territories that were award­       including Recovery Act requirements, and policies
              ed PSIC grants to determine whether (1) costs                and procedures to effectively monitor these contracts.
              incurred by grantees are allowable and in accordance         Determine whether acquisition staff is communicat­
              with grant requirements; (2) grantees are meeting            ing project issues with NIST management.
              their matching share requirements; (3) equipment
              purchased by the grantees has been tested properly,          NTIA’s Management and Oversight of
              operates effectively, and improves operability; and          the Broadband Technology
              (4) grantees with an approved extension are on sched­        Opportunities Program (BTOP) Booz
              ule to meet the September 30, 2012, deadline for             Allen Hamilton (BAH) Contract
              completing their investments.                                Audit a $99 million contract awarded to BAH to pro­
                                                                           vide program administration, application review,
                                                                           communications and outreach, grants administra­
              U.S. Patent and Trademark Office                             tion, post-award technical assistance, and manage­
                                                                           ment support for BTOP. Determine (1) how NTIA
              Patent Hoteling Program (PHP)
                                                                           ensures the receipt and quality of the goods and serv­
              Audit the PHP, USPTO’s largest telework program,
                                                                           ices it is paying for, (2) what specific controls exits to
              to determine (1) the extent to which USPTO’s poli­
                                                                           verify invoices and payment processes, and (3) how
              cies and their implementation provide adequate man­
                                                                           NTIA mitigates risks associated with the time-and­
              agement controls for the program, (2) how the
                                                                           materials contract and task orders.
              productivity of the program’s participants is meas­
              ured, and (3) how successfully USPTO has achieved            NTIA’s Monitoring of BTOP Grant
              its stated savings through this program.
                                                                           Awards
                                                                           Review the effectiveness of NTIA’s monitoring
                                                                           processes for BTOP awards that total $3.9 billion in
                                                                           federal funds and result in projects that will have a
                                                                           value of approximately $5.3 billion. Determine the
                                                                           reasonableness of monitoring levels, activities, and


                                                                       6
OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM   Page 7




              September 2011—Semiannual Report to Congress                 Work in Progress



              tools, as well as the processes to adjust the monitor­
              ing levels of specific recipients if necessary.

              NTIA’s Processes for BTOP Grantees’
              Matching Share
              Determine whether NTIA has adequate processes in
              place to ensure that BTOP grantees’ matching shares
              of approximately $1.4 billion (1) come from nonfed­
              eral funds and (2) meet both administrative require­
              ments and the terms and conditions of the individual
              awards (a sample of 25 NTIA BTOP grantees was
              selected to determine reasonableness, allowability,
              and allocability of grantee match).




                                                                       7
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 8
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM   Page 9




                 DEPARTMENT-WIDE MANAGEMENT


              T
                      he U.S. Department of Commerce works to help American companies become more innovative and
                      successful at home and more competitive abroad. It creates the conditions for economic growth and
                      opportunity by promoting innovation, entrepreneurship, competitiveness, and stewardship.

              The Department accomplishes its mission by providing national and local weather services, developing key eco­
              nomic and demographic data (including the decennial census), advancing technological and scientific innova-
              tion, protecting and restoring environmental resources, promoting international trade, and supporting local,
              regional, and national economic development. These activities impact U.S. business and industry daily and
              play a critical role in the nations’ economic well-being.


              Additional Multimillion Dollar                                 Audits of Commerce Fund
              Guilty Pleas in Price-Fixing Case                              Recipients by Independent
                                                                             Auditors
              In September 2011, six Japanese companies agreed to
              plead guilty and pay criminal fines, subject to court          In addition to undergoing OIG-performed audits,
              approval, totaling $46.8 million for their roles in a          certain recipients of Department of Commerce
              conspiracy to fix certain fees in the provision of             financial assistance are periodically examined by state
              freight forwarding services for air cargo shipments            and local government auditors and by independent
              from Japan to the United States between 2002 and               public accountants. OMB Circular A-133, Audits of
              2007. Previously, in the September 2010 Semiannual             States, Local Governments, and Non-Profit
              Report to Congress (page 17), we reported that six             Organizations, sets forth audit requirements for most
              European companies agreed to plead guilty to violat­           of these audits. For-profit organizations, including
              ing the Sherman Antitrust Act by conspiring to cre­            those that receive Technology Innovation Program
              ate and fix fees related to export surcharges, currency        funds, are audited in accordance with Government
              adjustments, and peak season surcharges. As a result           Auditing Standards. In addition, organizations that
              of the most recent plea agreements, 12 companies               received Advanced Technology Program (ATP) funds
              have now agreed to plead guilty, resulting in a total of       are audited in accordance with NIST Program-
              approximately $97 million in criminal fines. This              Specific Audit Guidelines for ATP Cooperative
              investigation is part of an ongoing joint investigation        Agreements, and organizations that received
              into the freight forwarding industry by the                    Broadband Technology Opportunities Program
              Department of Justice’s Antitrust Division–National            funds are audited in accordance with the Program-
              Criminal Enforcement Section and the Federal                   Specific Audit Guidelines for the Broadband Technology
              Bureau of Investigation’s Washington Field Office.             Opportunities Program, issued by the Department.

                                                                             We examined 187 audit reports during this semian­
                                                                             nual period to determine whether they contained
                                                                             audit findings related to Commerce programs. For



                                                                         9
OIG SAR for SEPT 2011.qxd      11/28/11      10:53 AM     Page 10




              Department-Wide Management                                                  September 2011—Semiannual Report to Congress



              90 of these reports, the Department acts as an over­                  requirements. The other 97 reports cover entities for
              sight agency and monitors the audited entity’s com­                   which other federal agencies have oversight responsi­
              pliance with OMB Circular A-133, Government                           bility. We identified nine reports with material find­
              Auditing Standards, or program-specific reporting                     ings related to the Department of Commerce.

                Report Category                            OMB A-133 Audits                 Program-Specific Audits                  Total

                Pending (April 1, 2011)                                 43                                 39                          82

                Received                                              148                                  43                         191

                Examined                                              172                                  15                         187

                Pending (September 30, 2011)                            19                                 67                          86


              The following table shows a breakdown by operating unit of approximately $668 million in Commerce
              funds audited.


                Agency                                                                                                               Funds

                Economic Development Administration                                                                               $101,594,595

                International Trade Administration                                                                                  278,445

                National Institute of Standards and Technology*                                                                    38,231,047

                National Oceanic and Atmospheric Administration                                                                    72,006,677

                National Telecommunications and Information Administration**                                                       44,873,751

                Multiagency                                                                                                       410,881,784

                Total                                                                                                             $667,866,299

              * Includes $ 10,032,590 in program-specific audits. A-133 audits account for the remaining amount of $28,198,457.
              **Includes $28,021,513 in program-specific audits. A-133 audits account for the remaining amount of $16,852,238.

              We identified a total of $7,011,676 in the federal share of questioned costs and $169,358 in funds to be put
              to better use. In most reports, the subject programs were not considered major programs; thus, the audits
              involved limited transaction and compliance testing against laws, regulations, and grant terms and conditions.
              The nine reports with Commerce findings are listed in Table 7-a on page 38.




                                                                               10
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 11




                         ECONOMICS AND STATISTICS

                             ADMINISTRATION


              T
                      he Economics and Statistics Administration analyzes economic activity, formulates policy options,
                      and produces a major share of the U.S. government’s economic and demographic statistics. The chief
                      economist monitors and analyzes economic developments and directs studies that have a bearing on
              the formulation of economic policy. ESA has two principal organizational units:

              Census Bureau—Publishes a wide variety of statistical data about the nations’ people and economy, conduct­
              ing approximately 200 annual surveys in addition to the decennial census of the U.S. population and the quin­
              quennial census of industry.

              Bureau of Economic Analysis—Prepares, develops, and interprets national income and product accounts
              (summarized by the gross domestic product) as well as aggregate measures of international, regional, and state
              economic activity.


              2010 Census: Cooperation                                     tory statement required the bureau to submit to
                                                                           Congress a detailed plan and timeline of decennial
              Between Partnership Staff and
                                                                           milestones and expenditures, as well as a quantitative
              Local Census Office Managers                                 assessment of associated program risks, within 30
              Challenged by Communication                                  days. OIG was required to provide quarterly reports
              and Coordination Problems                                    on the bureau’s progress against this plan.
              (OIG-11-023-I)
                                                                           Our quarterly reports to Congress, which began in
              Because Recovery Act funding was used to supple­             August 2009, concluded with the issuance of this,
              ment the Partnership Program, a summary of this              our sixth and final report. As such, it includes a sum­
              report appears in the Recovery Act oversight section,        mary of our findings over the last decade related to
              on page 28.                                                  the Census Bureau’s management of the decennial
                                                                           census. The bureau faced challenges in the following
              Census 2010: Final Report to                                 areas:
              Congress (OIG-11-030-I)                                      ■   maintaining senior management continuity;

              The Supplemental Appropriations Act of 2008 gave             ■   managing information technology requirements
              the Census Bureau an additional $210 million to                  and its large field data collection contract;
              help cover spiraling 2010 decennial costs stemming
              from the bureau’s problematic efforts to automate            ■   ensuring transparent and effective budgeting
              major field operations, major flaws in its cost-esti­            processes and decision making;
              mating methods, and other issues. The act’s explana­


                                                                      11
OIG SAR for SEPT 2011.qxd      11/28/11     10:53 AM      Page 12




              Economics and Statistics Administration 	                              September 2011—Semiannual Report to Congress



              ■    scheduling operations effectively and implementing           count for a reasonable cost. In order to decide on,
                   project management controls and contingency                  design, and implement these changes, this effort
                   plans;                                                       must start now. This decade’s early years are critical
                                                                                for setting the course for how well the 2020 count is
              ■    budgeting for and hiring a workforce appropriately           performed and how much it will ultimately cost.
                   sized for each operation;
                                                                                In our view, the Census Bureau faces six challenges it
              ■	   providing consistent training to a large workforce
                                                                                must effectively address for 2020. These challenges
                   and having that workforce conduct operations
                                                                                necessitate changing the decennial design to contain
                   according to procedures;
                                                                                costs, increase accuracy, and reduce the burden on
              ■    maintaining sufficient quality control over its field        respondents. Importantly, they also call for funda­
                   operations;                                                  mental improvements in decennial planning, man­
                                                                                agement, testing, and transparency to help ensure
              ■    managing and updating its maps and addresses;                that the missed opportunities of previous decades are
                                                                                not repeated in 2020:
              ■    eliminating duplicate enumerations while counting
                   the population experiencing homelessness; and                1. Revamp cost estimation and budget processes to
              ■    addressing respondent reluctance and enumerator                 increase accuracy, flexibility, and transparency.
                   safety.
                                                                                2. Use the Internet and administrative records to con­
                                                                                   tain costs and improve accuracy.
                        Increasing Lifecycle Costs for

                              Decennial Census
                                 3. Implement a more effective decennial test program
                               (2000-2020 Projected)
                              using the American Community Survey as a test
                                                                                   environment.

                                                                                4. Effectively automate field data collection.

                                                                                5. Avoid a massive end-of-decade field operation
                                                                                   through continuous updating of address lists and
                                                                                   maps.

                                                                                6. Implement improved project planning and man­
                                                                                   agement techniques early in the decade.

                                                                                Over the coming decade, OIG will monitor how well
                                                                                the bureau addresses these challenges.

              Source: OIG analysis of U.S. Census Bureau information            Congressional Testimony

              Costs for the 2010 decennial exceeded $12 billion.                On April 6, 2011, the Inspector General testified on
              Considering current population trends and likely                  the lessons learned from the 2010 Census and the
              cost growth, the Government Accountability Office                 management challenges facing the Department for
              has estimated that if 2010 were used as a model for               the 2020 Census. In describing oversight of decenni­
              the next census, the total price tag could rise to as             al planning and execution, the Inspector General
              high as $30 billion; the bureau’s own estimate is                 noted Census Bureau successes and missed opportu­
              $22 billion. By either estimate, such cost growth is              nities.
              simply unsustainable. Census must make fundamen­
                                                                                Among its successes were a shortened survey with
              tal changes to the design, implementation, and man­
                                                                                only 10 short-form questions for easier response and
              agement of the decennial census to obtain a quality
                                                                                a strategic communications campaign, which con­


                                                                           12
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM    Page 13




              September 2011—Semiannual Report to Congress                                      Economics and Statistics Administration



                                                                               its contractors. An OIG audit had initially discovered
                “This decade’s early years are critical for                    irregularities leading to a report questioning approxi­
                setting the course for how well the 2020                       mately $3 million. This led to an investigation that
                count is performed and how much it will                        uncovered further losses. Questioned costs arose from
                ultimately cost.”                                              a variety of failings, including failure to meet Small
                                                                               Business Administration 8(a) subcontracting provi­
                IG testimony before a U.S. Senate Homeland                     sions, failure to obtain required approvals for subcon­
                Security and Governmental Affairs                              tract billings, and billing labor rates and categories
                Subcommittee, April 6, 2011                                    that were unauthorized and/or in excess of authorized
                                                                               rates. This case warrants further reporting because of
                                                                               two significant issues that we have identified in com­
              tributed to a noteworthy mailback participation rate             pleting our final analysis of this case. This case marks
              of 74 percent nationally. The bureau also made its               the first instance where an OIG investigation has
              first use of computer-automated field data collection            resulted in Census pursuing resolution through
              for a decennial census. However, plans for automated             administrative contract dispute resolution.
              field data collection had to be greatly curtailed                Additionally, this case revealed that, Department-
              because of setbacks developing the handheld com­                 wide, there is a fundamental systemic weakness in
              puter. This necessitated late-stage preparations for             that contract data and payment information are not
              pen-and-paper nonresponse followup, which led to                 integrated into a standardized, automated system.
              major cost escalation, disruption of workflow, and               OIG found that contract management and investiga­
              high operational risk. Because of these circumstances            tion of the alleged fraud was considerably impeded
              and cost estimation weaknesses, the lifecycle cost               because contracting documents and claims data were
              for the 2010 decennial—originally estimated at                   maintained in hard copy and had to be manually
              more than $11 billion—reached a total exceeding                  entered into a database to analyze the data. Had this
              $12 billion.                                                     material been available in a usable, automated for­
                                                                               mat, Census could have managed the contract bet-
              The Inspector General acknowledged that the bureau               ter—and it would have likely cut investigative time
              is implementing an ambitious program to evaluate                 significantly, potentially allowing a greater recovery
              the quality of the 2010 decennial counts, as well as             for the government.
              the design, methods, processes, and operations. He
              recommended that Census take full advantage of the               Department Debars Contractor—
              results to build upon its success and overcome short­
              comings as it plans and designs the 2020 Census. He              First Debarment in 16 Years
              concluded his testimony by outlining the six top                 Department-wide
              management challenges for the 2020 census, which
              are further elaborated in our final report to Congress           Effective April 17, 2011, a former Census Bureau
              (OIG-11-030-I) and summarized on page 11 of this                 contractor was debarred by the Department for three
              report. His testimony’s seventh challenge—establish a            years, marking the first debarment by the
              term for the Census Bureau director position that                Department in 16 years. In our March 2008
              spans administrations—would require action by                    Semiannual Report (page 26), we noted the contrac­
              Congress rather than the Census Bureau.                          tor’s conviction in U.S. District Court for the District
                                                                               of Columbia for conspiracy to launder monetary
              Census Demands Multimillion                                      instruments. In our March 2009 Semiannual Report
                                                                               (page 50), we noted that this individual was sen­
              Dollar Payment from Contractor
                                                                               tenced to 9 years’ incarceration and ordered to serve
              As summarized in the March 2011 Semiannual                       2 years’ supervised probation upon release. The
              Report to Congress, in November 2010, the Census                 debarment resulted from coordination among OIG,
              Bureau issued a contracting officer’s final decision let­        the Office of Acquisition Management, and the
              ter demanding a substantial repayment from one of                Office of General Counsel.



                                                                          13
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM       Page 14




              Economics and Statistics Administration                            September 2011—Semiannual Report to Congress



              Former BEA Accountant Convicted                               Census Employee Removed,
              of Conspiracy and Multiple Fraud                              Sentenced, and Ordered to Pay
              Charges                                                       Restitution for False Statements
              In June 2011, a Bureau of Economic Analysis                   In September 2011, a Census Bureau employee was
              accountant, who retired days after being advised that         removed from Census employment after being sen­
              an indefinite, unpaid suspension was being proposed           tenced to five years’ probation and ordered to pay
              pursuant to our investigation, was convicted by a jury        restitution in the amount of $27,622. The former
              in the U.S. District Court of the District of                 Census employee pled guilty to one count of violat­
              Columbia on charges of conspiracy, bank fraud, wire           ing 18 U.S.C § 1012 (a change from a prior plea–see
              fraud, aggravated identity theft, and obstruction of          below), which prohibits false statements to the U.S.
              justice. This investigation was conducted jointly with        Department of Housing and Urban Development.
              the Internal Revenue Service, which was investigating         Our investigation found evidence that the former
              the BEA accountant in connection with a tax evasion           Census employee failed to report Census income,
              investigation against a Washington, DC, sports man­           which resulted in the individual improperly receiving
              ager. The crimes were not related to BEA or the               $27,622 in Section 8 housing benefits. As previously
              accountant’s work for BEA. The former BEA                     reported in the March 2011 Semiannual Report
              accountant faces 21 to 27 months’ incarceration,              (page 24), the former Census employee had pled
              according to sentencing guidelines, and was sched­            guilty to one count of violating 18 U.S.C. § 1001,
              uled for October 2011 sentencing.                             which prohibits false official statements generally,
                                                                            and agreed to pay $27,622 in restitution to the
                                                                            government.




                                                                       14
OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM    Page 15




                                  INTERNATIONAL TRADE

                                     ADMINISTRATION


              T
                       he International Trade Administration strengthens the competitiveness of U.S. industry, promotes
                       trade and investment, and ensures fair trade through the rigorous enforcement of our trade laws and
                       agreements. ITA works to improve the global business environment and helps U.S. organizations com­
              pete at home and abroad. ITA is organized into four distinct but complementary business units:
              U.S. and Foreign Commercial Service—Promotes U.S. exports, particularly by small and medium-sized
              enterprises, and provides commercial diplomacy support for U.S. business interests around the world.
              Manufacturing and Services—Strengthens U.S. competitiveness abroad by helping shape industry-specific
              trade policy.
              Market Access and Compliance—Assists U.S. companies and helps create trade opportunities through the
              removal of market access barriers.
              Import Administration—Enforces U.S. trade laws and agreements to prevent unfairly traded imports and to
              safeguard the competitive strength of U.S. businesses.


              U.S. Businessman Pleads Guilty                                 ITA Program Analyst Agrees to
              and Is Sentenced for Money                                     Pay Restitution for Sale of Transit
              Laundering and Visa Fraud                                      Benefits on eBay
              In June 2011, a U.S. businessman was sentenced as              In September 2011, an ITA program analyst, as an
              part of a plea agreement to 5 months’ incarceration            alternative to proposed removal, entered into a “Last
              and 6 months’ home confinement. During the inves­              Chance Agreement” with the Department, acknowl­
              tigation, conducted jointly with the U.S. State                edging misconduct in selling transit benefits
              Department’s Diplomatic Security Service, it was               (Metrocheks) on eBay, and agreed to repay the full
              determined the businessman fostered a close person­            value of the transit benefits sold. OIG initiated this
              al relationship with an ITA employee in China and              investigation after the Department of Transportation
              used that relationship to obtain ITA recommenda­               OIG notified our office that the program analyst had
              tions for visa applications. It was further established        been identified as having sold Metrocheks on eBay
              that the businessman had no legitimate business con­           on 13 separate occasions from March to September
              nections to the visa applicants as reported on the visa        2007, receiving approximately $800 from the trans­
              applications and dealings with ITA. No misconduct              actions.
              was found involving the ITA employee.


                                                                        15
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 16
OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM   Page 17




                         NATIONAL INSTITUTE OF

                      STANDARDS AND TECHNOLOGY


              T
                     he National institute of Standards and Technology promotes U.S. innovation and industrial com­
                     petitiveness by advancing measurement science, standards, and technology in ways that enhance eco­
                     nomic security and improve our quality of life. NIST carries out its mission via four cooperative
              programs:

              NIST Laboratories—Conduct research that advances the nations’ technology infrastructure and is needed by
              U.S. industry to continually improve products and services.

              Hollings Manufacturing Extension Partnership—Works with small- and mid-sized U.S. manufacturers
              through a nationwide network of 350 field offices to help them create and retain jobs, expand into new mar­
              kets and new products, increase profits, and save time and money

              Baldrige Performance Excellence Program—Promotes performance excellence among U.S. manufacturers,
              service companies, educational institutions, health care providers, and nonprofit organizations through out­
              reach programs and the annual Malcolm Baldrige National Quality Award.

              Technology Innovation Program—Provides cost-shared awards to industry, universities, and consortia for
              research on potentially revolutionary technologies that address critical national and societal needs.



              NIST Grantee Enters Pretrial                                  scheme to misapply federal funds, in violation
                                                                            of 18 U.S.C. § 666 (Theft or Bribery Concerning
              Diversion Program
                                                                            Programs Receiving Federal Funds). Previously, in
              In April 2011, an owner of a company that received            the March 2011 Semiannual Report to Congress (page
              a $2 million NIST Advanced Technology Program                 25), we reported the sentencing of a “principal inves­
              grant entered a pretrial diversion program for divert­        tigator” on the grant to 2 years’ probation, $100,207
              ing more than $100,000 from the grant to a related            in restitution, and a $100 special assessment follow­
              company for non–grant-related expenses and salaries,          ing the individual’s January 2010 guilty plea to one
              as well as aiding and abetting other employees in the         count of violating 18 U.S.C. § 666 in this matter.




                                                                       17
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 18
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM   Page 19




                       NATIONAL OCEANIC AND

                    ATMOSPHERIC ADMINISTRATION


              T
                      he National Oceanic and Atmospheric Administration mission is to understand and predict changes
                      in Earths’ environment, as well as conserve and manage coastal and marine resources to meet our
                      nations’ economic, social, and environmental needs. NOAA does this through six line offices:

              National Weather Service—Reports the weather of the United States and provides weather forecasts and
              warnings to the general public.

              National Ocean Service—Provides products, services, and information to promote safe navigation, support
              coastal communities, sustain marine ecosystems, and mitigate coastal hazards.

              National Marine Fisheries Service—Conducts a program of management, research, and services related to
              the protection and rational use of living marine resources.

              National Environmental Satellite, Data, and Information Service—Observes the environment by operat­
              ing a national satellite system.

              Office of Oceanic and Atmospheric Research—Conducts research related to the oceans and Great Lakes, the
              lower and upper atmosphere, space environment, and the Earth.

              Office of Program Planning and Integration—Develops and coordinates NOAAs’ strategic plan, supports
              organization-wide planning activities, guides managers and employees on program and performance manage­
              ment, and integrates policy analysis with decision-making.


              AUDITS OF THE PACIFIC STATES                                    resource management. Since 2003 the Department of
                                                                              Commerce has provided most of the Commission’s
              MARINE FISHERIES COMMISSION,
                                                                              federal funding and has acted as its cognizant federal
              PORTLAND, OR                                                    agency. During this semiannual period, OIG con­
                                                                              ducted the following three financial assistance audits:
              The Pacific States Marine Fisheries Commission—a
              quasi-governmental organization operating under a
                                                                              Audit of Indirect Cost Plans and
              federally-authorized interstate compact—contains
              five member states (Alaska, California, Idaho,                  Rates, Pacific States Marine
              Oregon, and Washington) that collaborate to utilize             Fisheries Commission,
              and protect the resources of fisheries under their              Portland, OR (OIG-11-025-A)
              jurisdictions. Most of the Commission’s funding
              comes from the administration of federal contracts              The Department is responsible for reviewing, negoti­
              and financial assistance agreements related to fisheries        ating, and approving the Commission’s indirect cost


                                                                         19
OIG SAR for SEPT 2011.qxd     11/28/11    10:53 AM     Page 20




              National Oceanic and Atmospheric Administration                            September 2011—Semiannual Report to Congress



              rates. Federal cost principles require governmental                ■	   Establish a deadline for the Commission to develop
              units wishing to claim indirect costs under federal                     and submit revised indirect cost plans and certifica­
              awards to (1) prepare rate proposals, certifications,                   tions in accordance with federal cost principles and
              and specified documentation; (2) develop, support,                      department polices, and recover any excess
              and negotiate acceptable indirect cost rates; and                       amounts claimed by the Commission.
              (3) in accordance with Department policy, allow
              grantees to develop acceptable indirect cost rates and             ■	   Suspend payment of indirect costs under all current
              integrate them into approved award budgets.                             awards and prohibit recovery for future awards
                                                                                      until the Commission develops and negotiates
              During the audit period (July 1, 2001–June 30,                          acceptable indirect cost rates.
              2008), the Commission recovered more than
              $15 million in indirect costs, as well as almost $3 mil­           ■	   Advise the Commission that its unsupported fees
              lion in administrative fees. The main objective of our                  and assessments are unallowable for federal partici­
              audit was to determine whether the Commission                           pation on all current and future awards, and require
              complied with federal cost principles and departmen­                    the Commission to identify and remit all such
              tal requirements for recovering indirect costs.                         assessments claimed from 2002 to the present.

              We found that the Commission did not comply with                   ■	   Advise the Department’s indirect cost program
              the minimum requirements necessary to recover indi­                     coordinator in the Office of Acquisition
              rect costs under federal awards. The Commission did                     Management of the results of this audit and our
              not submit, certify, or adequately support its indirect                 recommendations. The Department, in its cog­
              cost rate proposals. In addition, the Commission’s                      nizant agency role, should then immediately notify
              unsubmitted indirect cost proposals and rates were                      all of its bureaus as well as other federal agencies
              not allowable in accordance with federal guidelines in                  that have provided federal financial and acquisition
              that (1) implementation of its cost accounting system                   assistance to the Commission from 2002 through
              was inadequate; (2) it had not established an ade­                      the present.
              quate indirect cost methodology or policies, proce­
              dures, and controls; (3) its method of distributing                Audit of NOAA Cooperative
              costs was inequitable; and (4) it had not adjusted pro­            Agreements to the Pacific States
              posed indirect cost rates to reflect actual costs. In fact,        Marine Fisheries Commission,
              we found significant deficiencies in every area of indi­
                                                                                 Portland, OR (OIG-11-026-A)
              rect cost we tested. Therefore, all indirect costs
              claimed by the Commission during the audit period                  We audited two multiyear cooperative agreements
              are questionable; none of the $15.6 million in costs               NOAA awarded to the Commission to fund pro­
              or the $2.9 million in administrative fees recovered               grams for monitoring and observational data. During
              by the Commission during the audit period is allow­                the audit period, the Commission claimed total costs
              able for federal participation.                                    of $22,632,429 for these agreements. Our audit
                                                                                 objectives were to determine whether (1) the costs
              Because the Department acts as the Commission’s
                                                                                 claimed were reasonable, allowable, and allocable to
              cognizant federal agency, we recommend that the
                                                                                 the sponsored project; (2) award objectives were
              NOAA grants officer:
                                                                                 achieved; and (3) the Commission’s practices and
              ■   Require the Commission to comply with minimum                  controls complied with award requirements, assured
                  federal standards for financial management, such as            efficient project administration, and resulted in an
                  improving its cost accounting system; establishing             acceptable final product.
                  adequate indirect cost policies; and developing and
                                                                                 We found that a significant portion of the
                  documenting indirect cost rate proposals and sup­
                                                                                 Commission’s claimed costs were not reasonable,
                  porting documentation.
                                                                                 allowable, and allocable to the awards. We also found
                                                                                 that, while the Commission’s performance under the



                                                                            20
OIG SAR for SEPT 2011.qxd       11/28/11    10:53 AM   Page 21




              September 2011—Semiannual Report to Congress                             National Oceanic and Atmospheric Administration



              two agreements met the award goals and objectives,                 Commission are allowable, $17,598 in indirect and
              the Commission did not comply with numerous fed­                   overhead costs is questionable. This report, produced
              eral requirements and cost principles. Additionally,               for the contracting officers in NOAA’s Western
              the Commission’s financial management and pro­                     Region Acquisition Division, was not released pub­
              curement systems did not perform adequately, proj­                 licly.
              ect scope revisions had not been properly approved,
              and performance and financial reporting was incom­                 Audit of the Joint Polar Satellite
              plete and inaccurate.                                              System: Challenges Must Be Met
              For these reasons and others detailed in this report               to Minimize Gaps in Polar
              (as well as in OIG-11-025-A), we questioned                        Environmental Satellite Data
              $2,420,489 in federal funds claimed as costs by the                (OIG-11-034-A)
              Commission—and recommended that NOAA’s
              Director, Acquisitions and Grants, disallow and                    NOAA’s environmental satellite operations and
              recover $2,420,489 in questioned project costs. We                 weather forecasting are designated primary mission-
              also recommended the Director take a more aggres­                  essential functions of the Department of Commerce
              sive role in monitoring the Commission’s grants by                 because they directly support government functions
              requiring the Commission:                                          the President has deemed necessary to lead and sus­
                                                                                 tain the nation during a catastrophe. But NOAA’s
              ■	   to provide evidence of improving its policies and             current constellation of polar and geostationary oper­
                   internal controls to comply with minimum federal              ational environmental satellites is aging, and its capa­
                   financial, administrative, and procurement man­               bilities will degrade over time. As a result, the risk of
                   agement standards before awarding any new agree­              gaps in critical satellite data is increasing.
                   ments or contracts to the Commission.
                                                                                 The Joint Polar Satellite System (JPSS) program is
              ■	   (specifically, the Commission’s board of commis­              the result of a 2010 restructuring of the National
                   sioners) to enhance oversight of Commission finan­            Polar-orbiting Operational Environmental Satellite
                   cial and administrative operations by ensuring that           System (NPOESS) program, which had a long histo­
                   all levels of the organization receive adequate super­        ry of delays and cost overruns. As a result of these
                   vision consistent with the Commission’s policies.             delays, the NPOESS Preparatory Project (NPP) satel­
                                                                                 lite, which was originally intended to demonstrate
              ■	   to produce performance reports that (1) are com­              new instruments, will now be used operationally to
                   plete and consistent with approved project scope              maintain data continuity.
                   and budgets and (2) fully and accurately identify
                   the resources applied.                                        Our audit assessed the adequacy of JPSS develop­
                                                                                 ment and acquisition activities intended to maintain
              Interim Audit of Contract Number                                   continuity of weather and climate data obtained from
              AB133F-04-CQ-0011 Awarded to                                       polar orbit. We also examined activities at the JPSS
              Pacific States Marine Fisheries                                    programmatic level that had ramifications for the
                                                                                 long-term continuity of polar satellite coverage.
              Commission, Portland, OR
              (OIG-11-026-A)                                                     We found that while the NPP, as part of the JPSS
                                                                                 program, remains on track for an October 2011
              In October 2003, the Fish Ecology Division of                      launch, the availability of NPP data is at risk due to
              NOAA’s National Marine Fisheries Service awarded a                 delays in preparations for postlaunch data production
              $4.7 million contract to the Commission for scientif­              and limited features of the ground system supporting
              ic support services. NOAA later issued task orders                 NPP. In addition, our examination of program-level
              and modifications increasing the authorized cost of                activities confirmed an expected coverage gap
              the contract to over $6 million. Our audit concluded               between NPP and JPSS-1. The process for defining
              that, although most amounts claimed by the                         JPSS’ operational baseline of capabilities, costs, and


                                                                            21
OIG SAR for SEPT 2011.qxd       11/28/11    10:53 AM    Page 22




              National Oceanic and Atmospheric Administration                          September 2011—Semiannual Report to Congress



              schedule has been prolonged. And the transition of                  Former Executive Director of
              the ground and instrument contracts from the
                                                                                  Alaska Commission Suspended
              NPOESS program’s control to the JPSS program’s
              control has just been completed, but a few of the new               from Federal Procurement and
              instrument contracts still need to be finalized.                    Nonprocurement Transactions

              We recommended that NOAA:                                           Based upon the findings of our joint investigation
                                                                                  with the Federal Bureau of Investigation and Internal
              ■    take steps to mitigate risks of using NPP data oper­           Revenue Service Criminal Investigation Division,
                   ationally by determining the availability of addi­             OIG referred the former executive director for the
                   tional resources to support preparations for                   Alaska Eskimo Whaling Commission to the
                   postlaunch data production.                                    Department’s suspending and debarring official. One
                                                                                  suspension from federal procurement and nonpro­
              ■    coordinate efforts from across its line offices to min­        curement transactions was issued during this report­
                   imize the degradation of weather and climate fore­             ing period.
                   casting during gaps in satellite coverage.
                                                                                  NOAA Commissioned Corps
              ■	   provide decision makers with data illustrating the
                   consequences of limiting satellite observational               Officer Agreed to Pay Restitution
                   capabilities in order to more efficiently manage the
                   JPSS program under continued budget uncertainty.               In September 2011, a NOAA Commissioned Corps
                                                                                  officer agreed to pay restitution to NOAA in the
              ■	   Ensure that the JPSS program finalizes contracts               amount of $3,959. This agreement was the result of
                   with instrument vendors.                                       our investigation that found the officer knowingly
                                                                                  submitted fraudulent travel voucher claims on two
                                                                                  separate occasions. The officer also received a letter of
                                                                                  reprimand citing conduct unbecoming an officer.




                                                                             22
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM   Page 23




                            UNITED STATES PATENT AND

                               TRADEMARK OFFICE


              T
                       he United States Patent and Trademark Office administers the nations’ patent and trademark laws.
                       Patents are granted and trademarks registered under a system intended to provide incentives to invent,
                       invest in research, commercialize new technology, and draw attention to inventions that would other­
              wise go unnoticed. USPTO also collects, assembles, publishes, and disseminates technological information dis­
              closed in patents.


              Status of USPTO Initiatives to                                  patent applications awaiting review. In responding to
                                                                              these challenges, USPTO issued its 2010–2015
              Improve Patent Timeliness and
                                                                              Strategic Plan in September 2010. The plan’s first goal
              Quality (OIG-11-032-I)                                          is to “Optimize Patent Quality and Timeliness”—
                                                                              by reducing (1) overall patent pendency times to
              Patent operations, which account for the vast majority
                                                                              10 months for a first office action and 20 months
              of USPTO’s staffing and monetary resources, deter­
                                                                              total patent pendency (by 2014 and 2015 respective­
              mine whether inventions claimed in patent applica­
                                                                              ly) and (2) the number of patent applications await­
              tions are new, useful, and nonobvious. The timely
                                                                              ing examiner action by almost 50 percent.
              granting of quality patents provides inventors with
              exclusive rights to their discoveries and contributes to        Our review assessed the implementation status of the
              the strength and vitality of the U.S. economy.                  25 initiatives under the first goal and USPTO’s plans
                                                                              to evaluate each of these initiatives. We found that
                                                                              USPTO has implemented 15 initiatives and partially
                                What Is a Patent?                             implemented the other 10 initiatives we reviewed.
                                                                              However, while USPTO has made progress in imple­
                A patent for an invention is the grant of a prop­
                                                                              menting the initiatives, it lacks evaluation plans to
                erty right to the inventor, usually for 20 years
                                                                              assess the effect of these efforts on the overall strate­
                from the patent application’s U.S. filing date
                                                                              gic goals of improving patent quality and timeliness.
                and subject to the payment of maintenance fees.
                                                                              Finally, two areas of operation—patent appeals and
                The patent confers the right to exclude others
                                                                              preliminary reviews of international applications—
                from making, using, offering for sale, selling, or
                                                                              warrant further agency attention as USPTO directs
                importing the invention. Once USPTO issues a
                                                                              its resources and prioritizes activities.
                patent, the patentee must enforce the patent
                without aid from USPTO.                                       We recommended that the Director of USPTO:

                                                                              ■   revise the agency’s strategic plan to ensure the most
              Over the past decade, USPTO has faced growing                       critical efforts that support attaining the strategic
              patent pendency rates and increasing backlogs of                    patent goals remain in operation;



                                                                         23
OIG SAR for SEPT 2011.qxd      11/28/11    10:53 AM    Page 24




              United States Patent and Trademark Office 	                               September 2011—Semiannual Report to Congress



              ■    direct relevant operating units to prepare plans and         We recommended that the Director of USPTO
                   conduct evaluations of their respective patent ini­          direct the appropriate USPTO officials to:
                   tiatives; and
                                                                                ■	   improve PE2E planning by developing a descrip­
              ■	   examine anew the Board of Patent Appeals and                      tion and schedule of releases based on priori­
                   Interferences process and the quality and measures                tized high-level requirements for the entire project
                   of the Patent Cooperation Treaty contracting work.                and high-level designs for the project’s service
                                                                                     architecture;
              Patent End-to-End Planning and
                                                                                ■    update the current acquisition plan so that it
              Oversight Need to Be
                                                                                     describes the strategy for acquiring contracting
              Strengthened to Reduce                                                 resources, including overall approach, processes,
              Development Risk (OIG-11-033-A)                                        means to motivate contractor performance, and
                                                                                     risk management; and
              Patent End-to-End (PE2E) is USPTO’s latest effort
              to improve, integrate, and automate its patent                    ■	   improve oversight of PE2E by establishing a key
              process. The project is one of the most ambitious and                  milestone oversight review schedule, criteria for
              complex multiyear IT investments USPTO has                             evaluating project progress at oversight reviews,
              undertaken in several years, and it supports the                       and thresholds for convening special oversight
              agency’s strategic goal of optimizing patent quality                   reviews, as well as seeking independent expert
              and timeliness. Our audit evaluated USPTO’s readi­                     advice on technical and project management for
              ness to successfully manage the PE2E project by                        milestone reviews.
              determining the adequacy of its acquisition process
              and methodologies as well as the project’s gover­
              nance.                                                                           Patent Statistics (FY 2010)

              We found that improvements need to be made to                          Patent Examiners                              6,225
              PE2E’s long-term planning, acquisition strategy, and
                                                                                     Patents Issued                             233,127
              development oversight to avoid duplicating problems
              USPTO has had with past automation efforts.                            Patent Applications Filed                  509,367
              Specifically, we noted that USPTO:
                                                                                     Patent Application Backlog                 726,331
              ■    has begun development of PE2E without a product
                   backlog that included high-level requirements pri­           Source: USPTO FY 2010 Performance and Accountability Report
                   oritized by business and technical value for the
                   entire project, and has not defined the high-level
                                                                                Former USPTO Employee
                   technical model of services to be implemented for
                   the entire project;                                          Sentenced for False Statements

              ■    has not adequately defined a long-term strategy for          In May 2011, a former USPTO employee pled guilty
                   acquiring contractor resources past the first release        to one count of violating 18 USC § 1001 (False
                   of PE2E or clearly defined how risks will be man­            Statements) and was sentenced, on July 29, 2011, to
                   aged in the project’s acquisition plan; and                  36 months’ probation and a $100 special assessment.
                                                                                The former USPTO employee had been indicted in
              ■	   needs to strengthen its oversight procedures to              the U.S. District Court for the Eastern District of
                   define key milestones and conditions for special             Virginia on 8 counts of concealment, false state­
                   oversight reviews, as well as seek independent               ments, and false documents—specifically, for submit­
                   expert technical and project management advice as            ting work histories containing false information,
                   input to those reviews.                                      submitting false statements on the “Questionnaire
                                                                                for National Security Positions” (SF-86) and



                                                                           24
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 25




              September 2011—Semiannual Report to Congress                United States Patent and Trademark Office



              “Declaration for Federal Employment” (OF-306)
              forms, and altering “Notification of Personnel
              Action” (SF-50) forms, all of which were provided to
              prospective federal employers at the USPTO,
              Defense Intelligence Agency, the U.S. Department of
              State, and the Securities and Exchange Commission
              (SEC). This investigation was conducted in conjunc­
              tion with the SEC OIG and the Federal Bureau
              of Investigation, and prosecuted by the U.S.
              Department of Justice, Criminal Division, Public
              Integrity Section.




                                                                     25
OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 26
OIG SAR for SEPT 2011.qxd                             11/28/11    10:53 AM      Page 27




                                           AMERICAN RECOVERY AND

                                         REINVESTMENT ACT OVERSIGHT


              T
                                           he Recovery Act—signed into law by President Barack Obama on February 17, 2009—has, among its
                                           three immediate goals, to (1) create new jobs and save existing ones; (2) spur economic activity and
                                           invest in long-term growth; and (3) foster unprecedented levels of transparency and accountability.

              Five Department of Commerce operating units—the Census Bureau, EDA, NIST, NOAA, and NTIA—and
              OIG received $7.9 billion under the act, with $1.1 billion ultimately rescinded or transferred to other agen­
              cies. As of September 30, 2011, the Department had obligated almost all of the remaining $6.8 billion and dis­
              bursed approximately $2.9 billion.


                                                                   Commerce Operatng Units' Recovery Act Obligatons
                                                                      and Disbursements as of September 30, 2011
                                       $4,500                                                                                                                     100%
                                                                                                                                                  99%
                                                  $4,217                                        Total Obligatons
                                       $4,000                                                   Total Disbursements                                               90%
                                                                                                Percent Disbursed
                                                                                                                                81%                               80%
                                       $3,500

                                                                                                                  74%                                             70%
                                       $3,000
               Dollars (in Millions)




                                                                                                                                                                         Percent Disbursed




                                                                                                                                                                  60%
                                       $2,500                                                    58%

                                                                                51%                                                                               50%
                                       $2,000
                                                                 43%                                                                                              40%

                                       $1,500
                                                                                                                                                                  30%
                                                                                                                                                    $1,000 $995
                                       $1,000
                                                         $832                                                                                                     20%
                                                20%

                                        $500                                                                                                                      10%
                                                                  $360
                                                                                  $249              $241                              $231 $188
                                                                         $155            $127              $139     $149 $111
                                          $­                                                                                                                      0%
                                                       NTIA         NIST            NOAA        NIST Research           EDA          NOAA               Census
                                                                 Constructon     Procurement,   and Services                      Operatons,
                                                                                Acquisiton, and                                  Research, and
                                                                                 Constructon                                       Facilites




                                                                                                       27
OIG SAR for SEPT 2011.qxd   11/28/11     10:53 AM   Page 28




              American Recovery and Reinvestment Act Oversight                    September 2011—Semiannual Report to Congress



              OIG Recovery Act Oversight,                                    2010 Census: Cooperation
              February 2009–September 2011                                   Between Partnership Staff and
                                                                             Local Census Office Managers
              Funded by $16 million for proactive oversight of the
              Department’s Recovery Act programs and activities,             Challenged by Communication
              OIG has been evaluating whether agencies are using             and Coordination Problems
              Recovery Act funds efficiently and effectively and fol­        (OIG-11-023-I)
              lowing up on complaints including whistleblower
              reprisal allegations.                                          The Census Bureau received $1 billion in 2009
                                                                             Recovery Act funds for “Periodic Censuses and
                                                                             Programs” and set aside $126 million to supplement
               Key Activities                         Cumulative             the Partnership and Data Services Program
                                                       Results               (Partnership Program). The bureau spent approxi­
                                                                             mately half of that amount to establish a new part­
               Published audit and evaluation

                                                                             nership assistant position to provide additional
               reports
                                     14
                                                                             support to the program. Approximately 3,000
               Unpublished work products                      4              Partnership employees worked in FY 2009 and 3,800
                                                                             in FY 2010 (out of more than 165,000 and 782,000
               Audits/evaluations in process                  5              total decennial employees, respectively). The
                                                                             Partnership Program spent about $300 million in
               OIG recommendations for action,
                              FY 2009–10, out of more than $8 billion total spent
               correction, or improvement
                  43               on the decennial in those years.

               Recommendations implemented to
                               The Partnership Program primarily assisted decenni­
               take corrective action by making
                             al operations by interfacing with hard-to-count
               improvements, reducing risk, or
                              groups, populations who have historically been
               preventing waste
                            31               undercounted or traditionally have not responded
                                                                             well to the decennial census questionnaire (e.g., eth­
               Complaints received                          45               nic or minority populations, renters, or low-income
                                                                             people). To accomplish its goal, the Program collabo­
               Investigations completed                     17               rated with partners (including local and tribal gov­
                                                                             ernments, community and religious organizations,
               Investigations in process                      8
                                                                             schools, businesses, and the media) in communities
               Whistleblower reprisal
                                       within a Census regional office area. Partners pledged
               allegations received
                          5              their commitment to share the Census message and
                                                                             mobilized their constituents in support of the decen­
               Whistleblower reprisal
                                       nial count. According to the bureau, there were
               allegations accepted
                          1              approximately 257,000 regional Census partners.

               Debarments and corporate
                                     To connect these community partners with Census
               compliance agreements implemented
             1              required the Partnership staff to collaborate with
                                                                             local Census offices (LCOs). However, we found that
               Proactive training and outreach
                              the staff operated independent of LCO production
               sessions held 
                             126               timelines—and the two groups experienced systemic
                                                                             communication and coordination problems. In addi­
               Individuals trained                        5,594              tion, we found that the views of operations managers
                                                                             toward the Partnership program were influenced by
               Hours of training provided                 7,229
                                                                             the guidance the managers received, with managers
                                                                             reporting effective guidance tending to report more


                                                                        28
OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM    Page 29




              September 2011—Semiannual Report to Congress                        American Recovery and Reinvestment Act Oversight



              favorable views of the Partnership program. For sub­           public safety network and a public access wireless
              sequent decennials, we recommended that the bureau             broadband network in the San Francisco Bay Area.
              (1) align Partnership activities and objectives with
              LCO schedules to remedy current systemic short­                The objectives of our review were to (1) examine the
              comings and (2) ensure joint Partnership-LCO man­              procedures NTIA followed in its response to a com­
              ager training as part of the decennial process.                plaint from the County of Santa Clara and the City
                                                                             of San Jose about the grant to Motorola and (2) eval­
              With respect to the new partnership assistant posi­            uate how NTIA handled Motorola’s request for devi­
              tion created using Recovery Act funds, we found that           ating from the approved equipment valuation
              the assistants added value to the decennial but also           method. Since NTIA and the NOAA grants office
              presented challenges. Should the bureau retain the             (which made the Motorola award on NTIA’s behalf )
              assistant position in the 2020 Census, we recom­               share responsibility for administering and monitoring
              mended that it (1) refine the recruitment and hiring           the award, successful award monitoring, including
              process (especially through more job-specific exami­           addressing concerns about specific awards or grant
              nation) and training of assistants, as well as (2) pro­        terms and conditions, requires effective coordination
              vide assistants adequate electronic resources to do            between the program and grants offices.
              their job.
                                                                             We identified areas in which NTIA could have better
              Review of BTOP Award for the                                   handled both matters. For example, NTIA did not
                                                                             promptly engage the program’s grants officer to help
              San Francisco Bay Area Wireless
                                                                             address the complaint made against the award or to
              Enhanced Broadband Project                                     respond to Motorola’s requests to be exempted from
              (OIG-11-024-I)                                                 an award requirement. We recommended that NTIA
                                                                             improve its procedures for handling complaints asso­
              In response to a letter from the County of                     ciated with BTOP awards, and remind its federal
              Santa Clara, California, OIG conducted a review of a           program officers assigned to monitor BTOP grants to
              $50.6 million Broadband Technology Opportunities               work with grants officers to address important issues
              Program (BTOP) infrastructure grant awarded to                 and promptly communicate any potential problems
              Motorola Solutions, Inc. (formerly Motorola, Inc.).            or deviations. We also recommended that NTIA
              The San Francisco Bay Area Wireless Enhanced                   ensure that any equipment is valued at cost, consis­
              Broadband (BayWEB) project is a public-private                 tent with the cost principles. In response to our
              partnership between Motorola and public safety enti­           report, NTIA initiated corrective actions.
              ties throughout the counties that comprise the Bay
              Area, plus the County of Santa Cruz, for deploying a           Commerce Has Procedures in
                                                                             Place for Recovery Act Recipient
                                                                             Reporting, but Improvements
                      The Recovery Act and Broadband
                                                                             Should Be Made (OIG-11-031-A)
               The Recovery Act gave $4.7 billion to NTIA to
                                                                             This report is part of OIG’s continued oversight of
               establish BTOP, a competitive grant program
                                                                             the $7.9 billion in funds received by five Department
               intended to provide funds for deploying
                                                                             of Commerce agencies (plus OIG) under the
               broadband infrastructure in the United States in
                                                                             Recovery Act. Section 1512 of the act requires fund
               order to enhance broadband capacity at public
                                                                             recipients to submit to the Recovery Accountability
               computer centers, improve access to broadband
                                                                             and Transparency Board quarterly reports containing
               services for public safety agencies, promote sus­
                                                                             detailed information on the projects and activities
               tainable broadband adoption projects, and
                                                                             funded by the Recovery Act and their impact on job
               develop an interactive map showing broadband
                                                                             creation and retention. It also directs federal agencies
               capabilities and availablity.
                                                                             to review this information for accuracy before it is
                                                                             posted to Recovery.gov, the Board’s website.


                                                                        29
OIG SAR for SEPT 2011.qxd      11/28/11   10:53 AM   Page 30




              American Recovery and Reinvestment Act Oversight                     September 2011—Semiannual Report to Congress



              Our review of Census Bureau, EDA, NIST, NOAA,                   Report of Findings Issued in NIST
              and NTIA found that, while Commerce has imple­
                                                                              Recovery Act Whistleblower
              mented effective internal controls over its Recovery
              Act recipient reporting, there are still opportunities          Reprisal Investigation
              for improvement. We compared data elements in the               In August 2011, we issued our report of investigation
              quarterly reports submitted by the recipients to the            (ROI) into an alleged violation of Section 1553 of
              same information in Commerce’s grants and con­                  the Recovery Act, regarding protection of whistle-
              tracts management systems. While the overall error              blowers and prohibited reprisals. In accordance with
              rate in recipient reporting was low and the data dif­           Section 1553 reporting requirements, our ROI was
              ferences were generally in noncritical reporting fields,        transmitted to NIST for required agency determina­
              Commerce agencies did not identify and correct                  tion as to whether there is a sufficient basis to con­
              some of the significant data errors on the quarterly            clude that prohibited reprisal occurred against the
              reports. In addition, incorrect or inconsistent data in         complainant, a former NIST contractor employee.
              the Department’s three grants management systems                Our ROI was also provided to the complainant, the
              meant that Commerce personnel had to perform                    involved contractor, and the Recovery Accountability
              many manual procedures to reconcile the data to the             and Transparency Board as prescribed by Section
              information in the recipients’ reports.                         1553 of the Recovery Act. This investigation was
              We found several areas in which Commerce could                  previously referenced in our September 2010
              reduce its reliance on manual effort, increase the              Semiannual Report to Congress (page 7).
              efficiency of its reporting, and improve data quality.
                                                                              NIST Contractor Previously
              For example, its systems could be updated to make
              data fields consistent with recipients’ quarterly               Convicted of Fraud Enters into
              reports. Also, implementing a single Department-                Compliance Agreement
              wide management system to replace the three current
              systems would further streamline processes and                  In the March 2011 Semiannual Report (pages 15–16), we
              increase accuracy.                                              reported on the suspension of a NIST contractor and
                                                                              three of its employees by the U. S. Air Force, Office of
              We recommended that Commerce’s Director of the                  Deputy General Counsel (Contractor Responsibility)
              Office of Acquisition Management:                               based on our referral of this matter. In September 2011,
                                                                              the contractor entered into a corporate compliance agree­
              ■	   evaluate ways to automate the reports generated            ment for 3 years with the Air Force; the agreement serves
                   by the Department’s three grants management                as an alternative to debarment, enabling the government
                   systems;                                                   to closely monitor the contractor. As reported in the
                                                                              March 2011 summary of this matter, the contractor pled
              ■    develop a plan for consolidating the data from the         guilty in March 2008 to a criminal offense of making a
                   three distinct grants management systems into a            false certification or writing in order to export equipment
                   single system; and                                         for use in India’s nuclear program in violation of the
                                                                              applicable regulation. Subsequently, contractor person­
              ■    consider upgrading the Department’s new contract
                                                                              nel certified in official documents filed with federal con­
                   management system interface so that a single data­
                                                                              tracting offices that the contractor had not, within a
                   base incorporating data from all Commerce agen­
                                                                              3-year period preceding the certification, been convicted
                   cies would supply the information in the interface.
                                                                              of a crime for false statements and other offenses. The
              Additionally, agencies could improve data quality by            contractor submitted such certifications 5 times after the
              updating their management systems to more effi­                 2008 conviction and in that time obtained 276 contracts
              ciently monitor information that must be reported               from 16 different agencies that totaled nearly $20 mil­
              under the Recovery Act.                                         lion. In addition to our coordination with the Air Force,
                                                                              we received support in this investigation from the
                                                                              Recovery Accountability and Transparency Board and
                                                                              the Bureau of Industry and Security.


                                                                         30
OIG SAR for SEPT 2011.qxd    11/28/11     10:53 AM   Page 31




              September 2011—Semiannual Report to Congress                                                        Statistical Data



              STATISTICAL DATA
              The Inspector General Act Amendments of 1988 require the statistical data contained in Tables 1-8.

               TABLES                                                                                              Page

               1. Office of Investigation Statistical Highlights for This Period                                    31
               2. Audit Resolution and Follow-up                                                                    32
               3. Audit and Evaluation Statistical Highlights for This Period                                       33
               4. Audits with Questioned Costs                                                                      34
               5. Audits with Recommendations That Funds Be Put to Better Use                                       34
               6. Report Types for This Period                                                                      35
                      6-a. Performance Audits                                                                       35
                      6-b. Financial Assistance Audits                                                              36
                      6-c. Evaluations and Inspections                                                              36
               7. Single Audit and Program-Specific Audits                                                          37
                      7-a. Processed Reports with Audit Findings                                                    38
               8. Audits Unresolved for More Than 6 Months                                                          39


              Table 1. Office of Investigation Statistical Highlights for This Period

              Investigative activities cover investigations opened and closed by OIG; arrests by OIG agents; indictments and
              other criminal charges filed against individuals or entities as a result of OIG investigations; convictions secured
              at trial or by guilty plea as a result of OIG investigations; and fines, restitution, and all other forms of finan­
              cial recoveries achieved by OIG as a result of investigative action.

              Allegations processing presents the number of complaints from employees, stakeholders, and the general pub­
              lic that were handled by our Complaint Intake Unit. Of these, some result in the opening of investigations;
              others are referred to Commerce operating units for internal administrative follow-up. Others are unrelated to
              Commerce activities or do not provide sufficient information for any investigative follow-up and so are not
              accepted for investigation or referral. Fines and other financial recoveries refer only to agreements that a judge
              has accepted.

               Investigative Activities

               Investigations opened                                                                                39
               Investigations closed                                                                                88
               Arrests                                                                                               0
               Indictments/Informations                                                                              9
               Convictions                                                                                           4
               Fines and other financial recoveries                                                           $31,706
               Administrative disciplinary actions taken as a result of investigation                                6



                                                                     31
OIG SAR for SEPT 2011.qxd        11/28/11   10:53 AM   Page 32




              Statistical Data                                               September 2011—Semiannual Report to Congress




               Allegations Processed

               Complaints received from all sources                                                               513

               Referrals to Commerce operating units and non-Commerce agencies                                    140

               Evaluated but not accepted for investigation or referral                                           334



              Table 2. Audit Resolution and Follow-up

              The Inspector General Act Amendments of 1988 require us to present (in this report) audits issued before the
              beginning of the reporting period (April 1, 2011) for which no management decision had been made by the
              end of the period (September 30, 2011). Seven audit reports remain unresolved for this reporting period (see
              page 39).

              Audit resolution is the process by which the Department of Commerce reaches an effective management deci­
              sion in response to audit reports. Management decision refers to management’s evaluation of the findings and
              recommendations included in the audit report and the issuance of a final decision by management concerning
              its response.

              Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures for management
              to request a modification to an approved audit action plan or for a financial assistance recipient to appeal an
              audit resolution determination. The following table summarizes modification and appeal activity during the
              reporting period.

               Report Category                                             Modifications                  Appeals

               Actions pending (April 1, 2011)                                   0                            2
               Submissions                                                       0                            1
               Decisions                                                         0                            2
               Actions pending (September 30, 2011)                              0                            1




                                                                    32

OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM   Page 33




              September 2011—Semiannual Report to Congress                                                      Statistical Data



              Table 3. Audit and Evaluation Statistical Highlights for This Period

              Audits comply with standards established by the Comptroller General of the United States for audits of feder­
              al establishments, organizations, programs, activities, and functions.

              Inspections include evaluations, inquiries, and similar types of reviews that do not constitute an audit or a
              criminal investigation.

               Questioned costs*                                                                      $23,508,997

               Value of audit recommendations that funds be put to better use**                            169,358

               Value of audit recommendations agreed to by management***                                 6,334,252

              *Questioned cost: This is a cost questioned by OIG because of (1) an alleged violation of a provision of a law,
              regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
              of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
              (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

              **Value of audit recommendations that funds be put to better use: This results from an OIG recommen­
              dation that funds could be used more efficiently if Commerce management took action to implement and com­
              plete the recommendation. Such actions may include (1) reductions in outlays; (2) deobligation of funds from
              programs or operations; (3) withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
              bonds; (4) costs not incurred by implementing recommended improvements related to Commerce, a contrac­
              tor, or a grantee; (5) avoidance of unnecessary expenditures identified in preaward reviews of contracts or grant
              agreements; or (6) any other savings specifically identified.

              ***Value of audit recommendations agreed to by management: This is the sum of (1) disallowed costs and
              (2) funds put to better use that are agreed to by management during resolution. Disallowed costs are the
              amount of costs that were questioned by the auditors or the agency action official and subsequently deter­
              mined—during audit resolution, or during negotiations by a contracting officer—not to be charged to the gov­
              ernment.




                                                                     33
OIG SAR for SEPT 2011.qxd        11/28/11     10:53 AM       Page 34




              Statistical Data                                                                September 2011—Semiannual Report to Congress



              Table 4. Audits with Questioned Costs

              See Table 3 for a definition of “questioned cost.” An unsupported cost is a cost that is not supported by ade­
              quate documentation at the time of the audit. Questioned costs include unsupported costs.

                                                                                                               Questioned             Unsupported
                Report Category                                                               Number             Costs                   Costs

                A. Reports for which no management decision had been
                   made by the beginning of the reporting period                                 12           $23,501,346                 $919,060
                B. Reports issued during the reporting period                                      8            23,508,997             22,523,686
                Total reports (A+B) requiring a management decision
                during the period*                                                               20             47,010,343             23,442,746
                C. Reports for which a management decision was made
                   during the reporting period                                                     8             8,769,064               6,078,235
                        i. Value of disallowed costs                                                             6,331,385               6,078,235
                        ii. Value of costs not disallowed                                                        2,437,679                           0
                D. Reports for which no management decision had been
                   made by the end of the reporting period                                       12             38,241,279             17,364,511

              *Four audit reports included in this table are also included among reports with recommendations that funds be put to better use (see Table 5).
              However, the dollar amounts do not overlap.


              Table 5. Audits with Recommendations That Funds Be Put to Better Use

              See Table 3 for a definition of “recommendation that funds be put to better use.”

                Report Category                                                                                  Number                     Value

                A. Reports for which no management decision had been
                   made by the beginning of the reporting period                                                      4                $2,711,346
                B. Reports issued during the reporting period                                                         2                    169,358
                Total reports (A+B) requiring a management decision
                during the period*                                                                                    6                  2,880,704
                C. Reports for which a management decision was made
                   during the reporting period                                                                        3                  1,617,851
                        i. Value of recommendations agreed to by management                                                                    2,867
                        ii. Value of recommendations not agreed to by management                                                         1,614,984
                D. Reports for which no management decision had been made
                   by the end of the reporting period                                                                 3                  1,262,853

              *Four audit reports included in this table are also included among reports with questioned costs (see Table 4). However, the dollar amounts do
              not overlap.




                                                                                   34
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM    Page 35




              September 2011—Semiannual Report to Congress                                                          Statistical Data



              Table 6. Report Types for This Period

              Performance audits are engagements that provide assurance or conclusions based on an evaluation of suffi­
              cient, appropriate evidence against stated criteria, such as specific requirements, measures, or defined business
              practices. Performance audits provide objective analysis so that management and those charged with gover­
              nance and oversight can use the information to improve program performance and operations, reduce costs,
              facilitate decision making by parties with responsibility to oversee or initiate corrective action, and contribute
              to public accountability.

              Financial assistance audits are audits of Department of Commerce grants, cooperative agreements, loans or
              loan guarantees; or pre- or post-award audits of Commerce contracts.

              Evaluations and inspections include evaluations, inquiries, and similar types of reviews that do not constitute
              an audit or a criminal investigation. An inspection is defined as a process that evaluates, reviews, studies, or ana­
              lyzes the programs and activities of a department or agency for the purposes of providing information to man­
              agers for decision making; making recommendations for improvements to programs, policies, or procedures;
              and identifying where administrative action may be necessary.

               Type                                               Number of Reports                     Table Number

               Performance audits                                           3                              Table 6-a
               Financial assistance audits                                  3                              Table 6-b
               Evaluations and inspections                                  4                              Table 6-c
               Total                                                        10


              Table 6-a. Performance Audits

                                                                              Report            Date          Funds to Be Put
               Report Title                                                   Number           Issued          to Better Use

               National Oceanic and Atmospheric Administration
               Audit of the Joint Polar Satellite System: Challenges
               Must Be Met to Minimize Gaps in Polar
               Environmental Satellite Data                                OIG-11-034-A        09.30.11                0
               Office of the Secretary
               Commerce Has Procedures in Place for Recovery
               Act Recipient Reporting, but Improvements
               Should Be Made                                              OIG-11-031-A        07.29.11                0
               U.S. Patent and Trademark Office
               Patent End-to-End and Oversight Need to Be
               Strengthened to Reduce Development Risk                     OIG-11-033-A        09.29.11                0




                                                                      35
OIG SAR for SEPT 2011.qxd        11/28/11   10:53 AM   Page 36




              Statistical Data                                               September 2011—Semiannual Report to Congress



              Table 6-b.           Financial Assistance Audits

                                                       Report     Date     Funds to Be Put Amount      Amount
               Report Title                            Number    Issued     to Better Use Questioned Unsupported

               National Oceanic and Atmospheric Administration
               Audit of Indirect Cost Plans
               and Rates Pacific States
               Marine Fisheries
               Commission, OR                      OIG-11-025-A 05.19.11           0        $14,059,234    $14,059,234
               Audit of NOAA Cooperative
               Agreements to the Pacific
               States
               Marine Fisheries
               Commission, OR                      OIG-11-026-A 06.10.11           0          2,420,489      2,368,619
               Interim Audit of Contract
               Number AB133F-04-CQ-0011
               Awarded to Pacific States
               Marine Fisheries
               Commission, OR            OIG-11-027-A 06.10.11                     0           17,598         17,598


              Table 6-c. Evaluations and Inspections

                                                                          Report           Date         Funds to Be Put
               Report Title                                               Number          Issued         to Better Use

              Census Bureau
              2010 Census: Cooperation Between Partnership Staff
              and Local Census Office Managers Challenged by
              Communication and Coordination Problems                    OIG-11-023-I     04.08.11            0
              Census 2010: Final Report to Congress                      OIG-11-030-I     06.27.11            0
              National Telecommunications and Information Administration
              Review of BTOP Award for the San Francisco Bay
              Area Wireless Enhanced Broadband (BayWEB) Project OIG-11-024-I              05.06.11            0
              U.S. Patent and Trademark Office
              Status of USPTO Initiatives to Improve
              Patent Timeliness and Quality                              OIG-11-032-I     09.29.11            0




                                                                   36

OIG SAR for SEPT 2011.qxd      11/28/11      10:53 AM      Page 37




              September 2011—Semiannual Report to Congress                                                    Statistical Data



              Table 7. Single Audit and Program-Specific Audits

              OIG reviewed and accepted 187 audit reports prepared by independent public accountants and local, state, and
              other federal auditors. The reports processed with questioned costs, recommendations that funds be put to bet­
              ter use, and/or nonfinancial recommendations are listed in Table 7-a.

                Agency                                                                                         Audits

                Economic Development Administration                                                              72
                International Trade Administration                                                                 1
                National Institute of Standards and Technology*                                                  17
                National Oceanic and Atmospheric Administration                                                  26
                National Telecommunications and Information Administration*                                      22
                Multiagency                                                                                      47
                No Commerce expenditures                                                                           2
                Total                                                                                           187

              *Includes 6 program-specific audits for NIST and 9 program-specific audits for NTIA.




                                                                                37
OIG SAR for SEPT 2011.qxd        11/28/11   10:53 AM     Page 38




              Statistical Data                                                          September 2011—Semiannual Report to Congress



              Table 7-a. Processed Reports with Audit Findings

                                                       Report               Date Funds to Be Put Amount      Amount
                Report Title                           Number              Issued to Better Use Questioned Unsupported

               Economic Development Administration
               Connecticut Community
               Investment Corporation ATL-09999-11-3972 05.02.11                                  0       $18,750          0
               City of Baldwin Park, CA* ATL-09999-11-4148 07.14.11                               0          0             0
               Neuse River Council of
               Governments, NC                 ATL-09999-11-4206 09.08.11                         0       118,519          0
               Economic Development
               Fund of Northern
               Vermont, Inc.                   ATL-09999-11-4165 09.27.11                   $90,955          0             0
               National Institute of Standards and Technology
               Composite Support and
               Solutions, Inc., CA             ATL-09999-11-4090 04.04.11                         0       180,922          0
               Michelin North
               America, Inc., SC               ATL-09999-11-4184 09.29.11                   78,403           0             0
               National Oceanic and Atmospheric Administration
               Government of Puerto
               Rico Department of
               Natural and Environment
               Resources               ATL-09999-11-4031 05.16.11                                 0      6,078,235     6,078,235
               National Telecommunications and Information Administration
               The Navajo Nation, AZ** ATL-09999-11-4246 08.31.11                                 0          0             0
               North Florida Broadband
               Authority               ATL-09999-11-4280 09.23.11                                 0       615,250          0

              *Noncompliance with leveraging requirements of EDA’s Revolving Loan Fund program.
              **Noncompliance with some internal control requirements.




                                                                             38

OIG SAR for SEPT 2011.qxd   11/28/11   10:53 AM   Page 39




              September 2011—Semiannual Report to Congress                                                   Statistical Data



              Table 8. Audits Unresolved for More Than 6 Months

              Census Bureau                        Computer & High Tech Management, Inc.

                                                   In our September 2005 Semiannual Report, we reported the results of
                                                   audits of 2 of the 21 task orders for IT services that Computer & High
                                                   Tech Management, Inc., was providing to Census. We sought to deter­
                                                   mine whether the firm had complied with contract terms and conditions
                                                   and federal regulations and had billed Census for work performed in
                                                   accordance with specifications of the task order. We found that the firm
                                                   failed to comply with numerous contract and federal requirements,
                                                   which caused us to question more than $10.7 million in direct labor and
                                                   other reimbursable costs. We have suspended audit resolution on this
                                                   contract audit pursuant to an agreement with Census.

              National Institute of Standards
              and Technology                       MEP Program

                                                   In our March 2009, September 2009, and September 2010 Semiannual
                                                   Reports, we discussed our audits of the operations of the four centers
                                                   located in Florida, Massachusetts, Texas, and California that received
                                                   cooperative agreements under the NIST MEP program. Our audits
                                                   questioned over $31 million in costs claimed. We are awaiting the sub­
                                                   mission of the proposals. (ATL-18568, DEN-18135, DEN-18573,
                                                   DEN-18572)

              National Oceanic and
              Atmospheric Administration           Alaska Eskimo Whaling Commission

                                                   As reported in our March 2009 Semiannual Report, a single audit review
                                                   of this NOAA grant questioned costs totaling $66,353 in expenditures
                                                   that were not adequately documented. We have suspended audit resolu­
                                                   tion on this grant audit pursuant to an agreement with NOAA. (ATL­
                                                   09999-8-3238)




                                                                  39
OIG SAR for SEPT 2011.qxd    11/28/11    10:53 AM   Page 40




              Reporting Requirements                                              September 2011—Semiannual Report to Congress



              REPORTING REQUIREMENTS
              The Inspector General Act of 1978, as amended, specifies reporting requirements for Semiannual Reports. The
              requirements are listed below and indexed to the applicable pages of this report.

               Section                                                    Topic                                          Page

               4(a)(2)                  Review of Legislation and Regulations                                             40
               5(a)(1)                  Significant Problems, Abuses, and Deficiencies                                   9-30
               5(a)(2)                  Significant Recommendations for Corrective Action                                9-30
               5(a)(3)                  Prior Significant Recommendations Unimplemented                                   40
               5(a)(4)                  Matters Referred to Prosecutorial Authorities                                     31
               5(a)(5) and 6(b)(2)      Information or Assistance Refused                                                 41
               5(a)(6)                  Listing of Audit Reports                                                        35-36
               5(a)(7)                  Summary of Significant Reports                                                   9-30
               5(a)(8)                  Audit Reports—Questioned Costs                                                    34
               5(a)(9)                  Audit Reports—Funds to Be Put to Better Use                                       34
               5(a)(10)                 Prior Audit Reports Unresolved                                                    39
               5(a)(11)                 Significant Revised Management Decisions                                          41
               5(a)(12)                 Significant Management Decisions with Which OIG Disagreed                         41
               5(a)(13)                 Results of Peer Review                                                            41


              Section 4(a)(2): Review of                                   Section 5(a)(3): Prior Significant
              Legislation and Regulations                                  Recommendations
                                                                           Unimplemented
              This section requires the inspector general of each
              agency to review existing and proposed legislation           This section requires identification of each significant
              and regulations relating to that agency’s programs           recommendation described in previous semiannual
              and operations. Based on this review, the inspector          reports for which corrective action has not been com­
              general is required to make recommendations in the           pleted. Section 5(b) requires that the Secretary trans­
              semiannual report concerning the impact of such leg­         mit to Congress statistical tables showing the number
              islation or regulations on (1) the economy and effi­         and value of audit reports for which no final action
              ciency of the management of programs and                     has been taken, plus an explanation of why recom­
              operations administered or financed by the agency or         mended action has not occurred, except when the
              (2) the prevention and detection of fraud and abuse          management decision was made within the preceding
              in those programs and operations. Comments con­              year. However, information on the status of any audit
              cerning legislative and regulatory initiatives affecting     recommendations can be obtained through OIG
              Commerce programs are discussed, as appropriate, in          upon request.
              relevant sections of the report.




                                                                         40

OIG SAR for SEPT 2011.qxd   11/28/11    10:53 AM   Page 41




              September 2011—Semiannual Report to Congress                                                   Reporting Requirements



              Sections 5(a)(5) and 6(b)(2):                                 Department and OIG management, including their
                                                                            consideration by an Audit Resolution Council.
              Information or Assistance Refused
                                                                            During this period, no audit issues were referred.
              These sections require a summary of each report to
              the Secretary when access, information, or assistance         Section 5(a)(13): Results of Peer
              has been unreasonably refused or not provided. There          Review
              were no such instances during this semiannual period
              and thus no reports to the Secretary.                         The most recent peer review of the Office of Audit
                                                                            and Evaluation was conducted in 2009 by the Federal
              Section 5(a)(10): Prior Audit                                 Deposit Insurance Corporation’s (FDIC’s) Office of
                                                                            Inspector General. FDIC OIG’s System Review Report
              Reports Unresolved
                                                                            of our audit operations is available on our website.
              This section requires (1) a summary of each audit             We received a pass rating, the highest available rating.
              report issued before the beginning of the reporting           We have implemented all of FDIC OIG’s recommen­
              period for which no management decision has been              dations for process and policy improvements.
              made by the end of the reporting period (including
                                                                            In 2009, we conducted our latest peer review, which
              the date and title of each such report), (2) an expla­
                                                                            examined the Small Business Administration (SBA)
              nation of why a decision has not been made, and
                                                                            OIG’s audit operations. SBA OIG has informed us
              (3) a statement concerning the desired timetable for
                                                                            that it implemented the recommendation we made in
              delivering a decision on each such report. There are
                                                                            our review.
              one NOAA, four NIST, and two Census reports
              more than 6 months old for which no management                The most recent peer review of the Office of
              decision has been made.                                       Investigations was conducted in 2008 by the
                                                                            Department of State OIG. We were found compliant,
              Section 5(a)(11): Significant                                 the highest available finding, with the quality stan­
              Revised Management Decisions                                  dards established by the inspector general communi­
                                                                            ty and the Attorney General guidelines. We
              This section requires an explanation of the reasons           implemented all of State OIG’s suggestions for
              for any significant revision to a management decision         process and policy improvements. Our next peer
              made during the reporting period. Department                  review, to be conducted by the Office of Personnel
              Administrative Order 213-5, Audit Resolution and              Management OIG, is scheduled for the first quarter
              Follow-up, provides procedures for revising a manage­         of FY 2012.
              ment decision. For financial assistance audits, OIG
              must concur with any decision that would change the
              audit resolution proposal in response to an appeal by
              the recipient. There were two appeals this period.

              Section 5(a)(12): Significant
              Management Decisions with
              Which OIG Disagreed
              This section requires information concerning any sig­
              nificant management decision with which the inspec­
              tor general disagrees. Department Administrative
              Order 213-5 provides procedures for elevating unre­
              solved audit recommendations to higher levels of




                                                                       41
OIG SAR for SEPT 2011.qxd        11/28/11        10:53 AM       Page 42




              Acronyms and Abbreviations                                                        September 2011—Semiannual Report to Congress



              ACRONYMS AND ABBREVIATIONS
              AEWC . . . . . . . . . . . . . . . . . . . . . . . . Alaska Eskimo Whaling Commission
              AFF . . . . . . . . . . . . . . . . . . . . . . . . . . Asset Forfeiture Fund
              ATP       . . . . . . . . . . . . . . . . . . . . . . . . . Advanced Technology Program
              BAH . . . . . . . . . . . . . . . . . . . . . . . . . . Booz Allen Hamilton
              BayWEB . . . . . . . . . . . . . . . . . . . . . . San Francisco Bay Area Wireless Enhanced Broadband
              BEA . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Economic Analysis
              BIS . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Industry and Security
              BTOP . . . . . . . . . . . . . . . . . . . . . . . . Broadband Technology Opportunities Program
              EDA . . . . . . . . . . . . . . . . . . . . . . . . . . Economic Development Administration
              ESA . . . . . . . . . . . . . . . . . . . . . . . . . . Economics and Statistics Administration
              FDIC . . . . . . . . . . . . . . . . . . . . . . . . . Federal Deposit Insurance Corporation
              FTE . . . . . . . . . . . . . . . . . . . . . . . . . . full-time equivalent
              FY . . . . . . . . . . . . . . . . . . . . . . . . . . . fiscal year
              IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . information technology
              LCO . . . . . . . . . . . . . . . . . . . . . . . . . . local Census office
              JPSS . . . . . . . . . . . . . . . . . . . . . . . . . Joint Polar Satellite System
              MEP . . . . . . . . . . . . . . . . . . . . . . . . . Manufacturing Extension Partnership
              NIST . . . . . . . . . . . . . . . . . . . . . . . . . National Institute of Standards and Technology
              NOAA . . . . . . . . . . . . . . . . . . . . . . . . National Oceanic and Atmospheric Administration
              NPOESS . . . . . . . . . . . . . . . . . . . . . . National Polar-orbiting Operational Environmental Satellite System
              NPP . . . . . . . . . . . . . . . . . . . . . . . . . . NPOESS Preparatory Project
              NTIA . . . . . . . . . . . . . . . . . . . . . . . . . National Telecommunications and Information Administration
              OIG . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
              OMB . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget
              PE2E . . . . . . . . . . . . . . . . . . . . . . . . . Patent End-to-End Project
              PHP . . . . . . . . . . . . . . . . . . . . . . . . . . Patent Hoteling Program
              PSIC . . . . . . . . . . . . . . . . . . . . . . . . . Public Safely Interoperable Communications
              PSP . . . . . . . . . . . . . . . . . . . . . . . . . . Partner Support Program
              ROI . . . . . . . . . . . . . . . . . . . . . . . . . . report of investigation
              SBA . . . . . . . . . . . . . . . . . . . . . . . . . . Small Business Administration
              TC . . . . . . . . . . . . . . . . . . . . . . . . . . . Technology Center (United States Patent and Trademark Office)
              USPTO . . . . . . . . . . . . . . . . . . . . . . . United States Patent and Trademark Office


                                                                                     42
OIG SAR 2 and 3 covers.qxd        11/18/11       12:23 PM      Page 2




                                          Office of Inspector General


                       Office of                                      Inspector General                                          Office of
                     Administration                                                                                              Counsel
                                                                           Deputy
                                                                      Inspector General




                                   Office of Audit                                                                 Office of
                                   and Evaluation                                                                Investigations




         OIG Main Number                                                          OIG Hotline
         Inspector General . . . . . . . . . . . . . . . . . . 202.482.4661
                                                                                  Telephone . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
         More Information                                                                                                                       or 800.424.5197
         Visit www.oig.doc.gov to learn more about our activities,                TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .202.482.5923
         download reports and testimony, and subscribe to our                                                                                      or 800.854.8407
         RSS feed for website updates. E-mail website comments                    E-mail . . . . . . . . . . . . . . . . . . . . . . . . . . . . hotline@oig.doc.gov
         to oigweb@oig.doc.gov.




      About the Cover
      The cover contains OIG’s new logo, which echoes the Commerce seal in form and iconography and abstractly represents the
      Department’s diverse agencies. The gear symbolizes innovation, technology, and entrepreneurship; the flag evokes the
      Department’s important international and domestic missions. In addition to alluding to the nautical origins of Commerce, the
      lighthouse acknowledges OIG’s responsibility to shine light on departmental programs and operations.




                             Photos courtesy U.S. Department of Commerce, U.S. Census Bureau, U.S. General Services Administration,
                                                       and National Aeronautics and Space Administration.
